           AUDIT OF THE
MULTIPLE AWARD SCHEDULE PROGRAM
      INDUSTRIAL FUNDING FEE
 REPORT NUMBER A090256/Q/A/P12003

          February 3, 2012
Date:        February 3, 2012

Reply to
Attn of:     Deputy Assistant Inspector General for Acquisition Audits (JA-A)

Subject:     Audit of the Multiple Award Schedule Program Industrial Funding Fee
             Report Number A090256/Q/A/P12003

To:          Steven J. Kempf
             Commissioner of Federal Acquisition Service (Q)


This report presents the results of the Audit of the Multiple Award Schedule (MAS)
Program Industrial Funding Fee (IFF). The audit found that the current fixed rate IFF
methodology used to fund the MAS Program is simple and transparent. However, the
IFF is set at a level that consistently generates net operating revenue in excess of
amounts required to recover MAS Program costs, make MAS Program investments,
and maintain a risk mitigating buffer. The Federal Acquisition Service (FAS) annually
considers its overall fund health as part of its budget process. However, FAS has not
performed a review specifically to determine whether the MAS Program IFF rate should
be adjusted since fiscal year (FY) 2004, when the rate was reduced from 1 percent to
0.75 percent of sales, and FAS has no criteria or methodology for performing such
reviews.

MAS Program net operating revenue has helped build up the reserves in the Acquisition
Services Fund (ASF). As of September 2009, the ASF had reserves totaling $687.5
million. Excess reserves are required to be returned to the U.S. Treasury; however, no
returns have been made since FY 2004 excess funds were returned in FY 2006.

FAS no longer associates cost recovery solely with the MAS Program. The MAS
Program is now managed by three business portfolios and its net operating revenue is
available to help fund other FAS programs. While this approach is authorized by the
Act that established the ASF, it diverges from the purpose of the IFF that has been
communicated to MAS customers (i.e. MAS Program cost recovery).

Finally, we identified opportunities to enhance controls over MAS sales reporting and
IFF collection processes.
We included your written comments to this report in Appendix B. I would like to thank
your staff for their assistance during this review. If you have any questions regarding
this report, please contact me at (703) 603-0189.




Kenneth L. Crompton
Deputy Assistant Inspector General for Acquisition (JA-A)
                             AUDIT OF THE
                  MULTIPLE AWARD SCHEDULE PROGRAM
                        INDUSTRIAL FUNDING FEE
                   REPORT NUMBER A090256/Q/A/P12003

                            TABLE OF CONTENTS
                                                                          Page

EXECUTIVE SUMMARY                                                            i

RESULTS OF AUDIT                                                             1

    Finding 1 – The IFF Generates Revenue Beyond MAS Program Needs           1

    Finding 2 – ASF Reserves Should be Evaluated for Return to the
                U.S. Treasury                                                2

    Finding 3 – FAS Needs to Communicate Expanded Use of IFF
                to Customers                                                 2

    Finding 4 – Opportunities Exist to Strengthen Controls Over the IFF      3

    Recommendations                                                          5

    Other Observations                                                       5

      The Fee Structure Is Viewed Favorably by Program Stakeholders          5

      Sales and Revenue Continue to Grow                                     6

      Costs Are Rising Faster Than Revenue                                   7

    Conclusion                                                               9

    Internal Controls                                                        9

    Management Comments                                                      9

APPENDIXES

    Appendix A – Background, Objectives, Scope, and Methodology            A-1

    Appendix B – Management Comments                                       B-1

    Appendix C – Report Distribution                                       C-1
                                AUDIT OF THE
                     MULTIPLE AWARD SCHEDULE PROGRAM
                           INDUSTRIAL FUNDING FEE
                      REPORT NUMBER A090256/Q/A/P12003

                               EXECUTIVE SUMMARY

OBJECTIVES

The objectives of our audit were to determine whether: (1) the Industrial Funding Fee
(IFF) is appropriately structured and set at a level that provides a reasonable amount of
revenue for the Federal Acquisition Service (FAS) to recover Multiple Award Schedule
(MAS) Program costs, make appropriate investments, and maintain a risk mitigating
buffer; and (2) controls for the IFF collection process promote accurate and timely
payment of these fees.


RESULTS IN BRIEF

The current fixed rate IFF methodology used to fund the MAS Program is simple and
transparent. However, the IFF is set at a level that consistently generates net operating
revenue in excess of amounts required to recover MAS Program costs, make MAS
Program investments, and maintain a risk mitigating buffer. FAS annually considers its
overall fund health as part of its budget process. However, FAS has not performed a
review specifically to determine whether the MAS Program IFF rate should be adjusted
since fiscal year (FY) 2004, when the rate was reduced from 1 percent to 0.75 percent
of sales, and FAS has no criteria or methodology for performing such reviews.

MAS Program net operating revenue has helped build up the reserves in the Acquisition
Services Fund (ASF). As of September 2009, the ASF had reserves totaling $687.5
million. Excess reserves are required to be returned to the U.S. Treasury; however, no
returns have been made since FY 2004 excess funds were returned in FY 2006.

FAS no longer associates cost recovery solely with the MAS Program. The MAS
Program is now managed by three business portfolios and its net operating revenue is
available to help fund other FAS programs. While this approach is authorized by the
Act that established the ASF, it diverges from the purpose of the IFF that has been
communicated to MAS customers (i.e. MAS Program cost recovery).

Finally, we identified opportunities to enhance controls over MAS sales reporting and
IFF collection processes.




                                            i
RECOMMENDATIONS

We recommend the Commissioner of the Federal Acquisition Service:

1. Evaluate the current IFF rate, considering needed investments and reserves, and
   adjust it if necessary.

2. Develop and establish criteria and methodology for evaluating, on a periodic basis,
   whether the IFF rate is properly set.

3. Evaluate the current ASF reserves, determine whether funds should be returned to
   the U.S. Treasury, and make any returns deemed appropriate.

4. Inform MAS customers that the IFF may be used to fund initiatives benefitting other
   programs or offset losses in other FAS programs. At a minimum, this can be done
   by revising General Services Acquisition Regulation 552.238-74.

5. Issue Standard Operating Procedures that require the FAS Office of Acquisition
   Management, Supplier Management Division, to obtain status updates and proof of
   payment on open receivables from MAS Administrative Contracting Officers for
   forwarding to the Office of Administrative Services’ GAO/IG Audit Response
   Division.


MANAGEMENT COMMENTS

On December 21, 2011, the FAS Commissioner concurred with recommendations 1
through 4, but took exception to recommendation 5. We revised recommendation 5
based on discussions with FAS and made other report changes we deemed
appropriate. Overall, we reaffirm our findings and recommendations. Management’s
comments are included in their entirety as Appendix B to this report.




                                          ii
                                          AUDIT OF THE
                               MULTIPLE AWARD SCHEDULE PROGRAM
                                     INDUSTRIAL FUNDING FEE
                                REPORT NUMBER A090256/Q/A/P12003

                                                 RESULTS OF AUDIT

Finding 1 – The IFF Generates Revenue Beyond MAS Program Needs

The Industrial Funding Fee (IFF) is set at a level that generates revenue in excess of
the amounts required to recover Multiple Award Schedule (MAS) Program costs, make
MAS Program investments, and maintain a risk mitigating buffer. As shown in Figures
1 and 2, the MAS Program has had net operating revenue every year since the rate was
last changed.

                                       Figure 1 – MAS Program Trends




                          Figure 2 – MAS Program Net Operating Revenue
      Category             FY 2007           FY 2008          FY 2009 1         FY 2010         FY 2011    FY 2012 2
                            $35.2             $37.7            $39.1             $39.5           $40.2      $41.3
        Sales
                            billion           billion          billion           billion         billion    billion
                            $250.3            $268.8           $279.2            $281.9          $287.6     $294.1
      Revenue
                            million           million          million           million         million    million
                            $190.2            $184.5           $219.3            $245.3          $271.5     $308.2
         Cost
                            million           million          million           million         million    million
    Net Operating           $60.0             $84.2            $59.9             $28.7           $16.1      -$14.1
      Revenue               million          million 3         million           million         million    million

1 Net of $7.9 million in extraordinary prior-period adjustments that increased FY 2009 costs.
2 All FY 2012 figures used in this report are based on FAS’s projections as of October 2011.
3 Difference due to rounding.




                                                                1
FAS annually assesses its overall fund health as part of the budget process.
Nevertheless, FAS has not performed a review specifically to determine whether the
MAS Program IFF rate should be adjusted since FY 2004, and does not have a
methodology or criteria for conducting such reviews.

We recognize that FAS efforts over the last few years have been focused primarily on
establishing the FAS organization. However, FAS has been in place almost 5 years
and the IFF rate has not been adjusted in 7 years. Therefore, it is our opinion that it is
now time for a reassessment of the fee.

In its assessment of the IFF rate, FAS should consider the need to offset direct and
indirect costs of operations and generate revenue for investments and reserves. These
considerations should be balanced against concerns about keeping excess revenue to
a minimum.

Finding 2 – ASF Reserves Should be Evaluated for Return to the U.S. Treasury

Acquisition Services Fund (ASF) reserves are not being returned to the U.S. Treasury. 4
Net operating revenue from the MAS Program and FAS’s other programs flows into the
ASF’s three reserve accounts (working capital, business, and investment reserves).
FAS uses these accounts as a risk mitigating buffer, to fund system improvements, and
to make strategic investments in the MAS Program and various other FAS programs.
After a provision for needs outlined in the Cost and Capital Plan is set aside, FAS is
required to return excess revenue to the U.S. Treasury. The total balance in the three
ASF reserve accounts as of September 2009 was $687.5 million. Accordingly, FAS
should determine whether any ASF funds can be returned to the U.S. Treasury.

Finding 3 – FAS Needs to Communicate Expanded Use of IFF to Customers

MAS customers have been informed that the IFF is used solely to fund the MAS
Program. However, this is currently not the case. The MAS Program is now spread
across three business portfolios and is no longer a self-contained cost center. Although
FAS maintains revenue and cost information at the program level within each portfolio, it
manages cost recovery at the overall portfolio and fund levels. Consequently, net
operating revenue for the MAS Program is retained within the ASF and is available to
supplement other FAS programs. While this approach is permitted by the Act that
established the ASF, it departs from the purpose of the IFF that has historically been
communicated to customers (i.e. MAS Program cost recovery).

The IFF provides the resources that enable FAS to offer all MAS customers and
contractors a basic level of service. This includes awarding and administrating MAS
contracts, maintaining FAS’s automated systems, reviewing contractors’ order fulfillment
and billing practices, and assisting in resolving billing disputes and damage claims. In
addition, FAS provides enhanced service to larger customers in select cases.


4   In FY 2006, $92 million of FY 2004 funds was returned. No ASF funds have been returned since then.

                                                               2
GSA’s legacy Federal Supply Service (FSS) managed all schedules comprising the
MAS Program as a single program. It was FSS policy that each supply program
recover its full operating costs on a break-even basis and that pricing structures be
reviewed annually to maintain these break-even positions.

On October 6, 2006, Congress enacted Public Law 109-313, the GSA Modernization
Act. This Act established FAS by combining GSA’s FSS and Federal Technology
Service and instituted the ASF by combining the General Supply Fund and the
Information Technology Fund. Management established portfolios based on the
products and/or services provided, and the MAS Program was divided among three of
these portfolios: Integrated Technology Services; General Supplies and Services; and
Travel, Motor Vehicles, and Card Services.

The Act grants GSA’s Administrator latitude in determining how to use net operating
revenue from the MAS Program, including offsetting losses in other FAS programs or
funding initiatives benefitting other FAS programs. However, this change has not been
formally communicated to MAS Program customers.

General Services Acquisition Regulation (GSAR) Clause 552.238-74 currently states
“The IFF reimburses FSS for the costs of operating the Federal Supply Schedules
Program and recoups its operating costs from ordering activities.” This understanding is
reinforced via other pronouncements. When the MAS Program became self-funded in
1995, the Federal Register reported that GSA "will use the industrial funding fee to fund
the cost of providing supplies and services through the Federal Supply Schedule
Program." 5 In 2004, when the IFF was last adjusted, the Federal Register reported
"GSA utilizes the IFF to fund the cost of providing supplies and services through the
Federal Supply Schedule program, eliminating operating expenses formerly funded with
appropriated monies." 6

To further improve transparency in the MAS Program, FAS needs to inform MAS
customers that the IFF may be used to fund other programs or offset losses in other
FAS programs. At a minimum, this can be done by updating the GSAR.

Finding 4 – Opportunities Exist to Strengthen Controls Over the IFF

FAS has taken a number of steps to strengthen controls over the accuracy of
contractor-reported sales data and IFF collection, as recommended in the previous
Office of Inspector General (OIG) IFF audit report. 7 Still, additional enhancements are
possible. By establishing claims for IFF underpayments identified in OIG preaward
audits, 8 FAS could help ensure timely collection of these funds, which amounted to


5 60 Federal Register 74 (April 18, 1995) p19360.
6 68 Federal Register 52 (March 18, 2003) p13212.
7 “Audit of the Federal Supply Service’s Industrial Funding Fee for the Schedules Program,” Report Number A83309/F/H/

V99513 dated May 28, 1999.
8 These audits are typically conducted before a contract is extended, and include an evaluation of the contractor’s sales reporting

and IFF payments.

                                                                3
approximately $140,000 in FY 2008 and $900,000 in FY 2009. Additionally, FAS could
improve its ability to verify sales and revenue by eliminating MAS contracts with little or
no sales activity over a specified time period.

Controls Over IFF Collection Can be Further Improved FAS controls over IFF
collections have improved since we last reviewed the process in 1999. Actions taken
include: using reports that identify contractor payment delinquencies; establishing
claims and assessing interest on fees not submitted in accordance with contract
requirements; and ensuring remittance data is reconciled to GSA’s Office of Finance
data. In addition, management has improved oversight of the process by developing
management reports to improve collection efforts, such as reports that show the age of
overdue remittances. However, controls could be further enhanced by requiring
periodic updates and proof of payment for open receivables for IFF underpayments
identified in preaward contract audits conducted by the OIG.

GSAR Clause 552.238-74 requires contractors to report sales and make IFF payments
within 30 days of the end of each calendar quarter. If a contractor fails to do so, an
automated delinquency notice is generated within 30 days after payment is due. If an
additional 45 days pass without payment, FAS sends information about the delinquent
contractor to GSA’s Office of Finance. The Office of Finance forwards this information
to the U.S. Treasury if the amount owed exceeds a certain threshold (currently $1,000)
and establishes a formal claim. The U.S. Treasury contacts collection agents to pursue
contractor payment of the IFF and collection costs.

When unpaid IFF is discovered during an OIG preaward audit, this information is
reported to the responsible contracting officer. The contracting officer indicates
concurrence by signing a Decision Record, which is tracked for its ultimate disposition
by the Office of Administrative Services’ GAO/IG Audit Response Division. This division
calls the unpaid IFF a receivable (rather than a formal claim) and monitors and
reconciles the status with FAS audit liaisons and GSA’s Office of Finance until paid.
These IFF receivables totaled approximately $140,000 in FY 2008 and over $900,000 in
FY 2009. Periodically requiring status updates and proof of payment for open
receivables for unpaid IFF found during OIG preaward contract audits could strengthen
controls in this area.

Controls Over IFF Verification Can Be Strengthened Controls over verification of
MAS Program sales have been enhanced since our previous audit but could be further
strengthened by eliminating underutilized MAS contracts.

FAS Industrial Operations Analysts (IOAs) visit contractors to, among other things,
verify MAS Program sales and determine whether contractors have adequate tracking
systems to identify these sales. However, there are over 18,000 MAS contracts and
fewer than 100 IOAs; therefore, each IOA must visit almost 80 contractors a year to
meet the FAS goal of two visits per 5-year contract period. 9

9 “Zone determined” visits, which are requested by administrative contracting officers, slightly increase this number. FAS
reported conducting 53 of these visits in FY 2009.

                                                            4
FAS policy states that contracts with less than $25,000 in sales during the first 2 years
and annually thereafter are subject to cancellation. During FY 2009, 8,588 MAS
contracts had less than $25,000 in sales and 6,406 of these had no sales at all. If the
contracts without sales were cancelled, the average number of required visits per IOA
would fall by about 28 per year. This workload reduction would allow the IOAs
additional time to educate performing contractors and verify their sales and IFF
payments. We addressed resource requirements for no-sale MAS contracts in a 2007
report concerning workload management 10 and recommended that FAS adopt a more
structured approach to reduce the number of underutilized MAS contracts. Accordingly,
we have no additional recommendation at this time.

Recommendations

We recommend the Commissioner of the Federal Acquisition Service:

     1. Evaluate the current IFF rate, considering needed investments and reserves, and
        adjust it if necessary.

     2. Develop and establish criteria and methodologies for evaluating, on a periodic
        basis, whether the IFF rate is properly set.

     3. Evaluate the current ASF reserves, determine whether funds should be returned
        to the U.S. Treasury, and make any returns deemed appropriate.

     4. Inform MAS customers that the IFF may be used to fund initiatives benefitting
        other programs or offset losses in other FAS programs. At a minimum, this can
        be done by revising GSAR 552.238-74.

     5. Issue Standard Operating Procedures that require the FAS Office of Acquisition
        Management, Supplier Management Division, to obtain status updates and proof
        of payment on open receivables from MAS Administrative Contracting Officers
        for forwarding to the Office of Administrative Services’ GAO/IG Audit Response
        Division.

Other Observations

During our audit, we made some additional observations regarding the IFF program
which we believe are worth noting.

The Fee Structure Is Viewed Favorably by Program Stakeholders The IFF structure
is viewed favorably by MAS Program contractors, customers and FAS. The IFF is fixed
at 0.75 percent of MAS Program sales, embedded in MAS prices, and remitted quarterly
to GSA by MAS contractors. This structure facilitates budgeting and planning for
contractors, customers and FAS; is manageable for contractors; allows GSA to easily

10“Review of Multiple Award Schedule Program Contract Workload Management,” Report Number A060190/Q/6/P07004 dated
July 31, 2007.

                                                        5
track and manage IFF payments; and provides overall price transparency. However, to
evaluate whether it is the most efficient structure for FAS, we compared it to fees
employed by other agencies that manage contracting vehicles for interagency use.
Figure 3 shows these fee structures.

                               Figure 3 – Alternative Fee Methodologies
                               Number            Primary
   Contract Vehicle              of             Product or                       Fee and Methodology
                              Contracts          Service
       National
   Aeronautics and
        Space                                                            0.5% with $10,000 per-order cap.
                                               Information
    Administration                 48                                    National Aeronautics and Space
                                               Technology
     Solutions for                                                        Administration processes order.
   Enterprise-Wide
    Procurement
                                                                            Large businesses – 1%.
                                                 Imaging               Small businesses – sliding scale
  National Institutes
                                                 Supplies              (0.25 – 1%) based on order size.
      of Health                    21
                                                   and                   Internal customers – No fee.
   Image World2
                                                 Services            External customers – $250 minimum.
                                                                  National Institutes of Health approves order.
    Department of                                                      Sliding scale based on order size:
       Justice’s                                                     3.5% < $1 million, 2% $1- $10 million,
                                               Information
     Information                   12                                          0.5% > $10 million.
                                               Technology
     Technology                                                   Department of Justice consults, coordinates,
   Support Services                                               issues documents, and prepares task order.


These alternative fee structures would not be easily transferred to the MAS Program as
they typically focus on one product and/or service grouping, whereas the MAS Program
offers a vast array of products and services. Additionally, while these programs have
relatively few contracts (12 to 48), the MAS Program had well over 18,000 contracts as
of June 2010. Further, in the MAS Program, orders are placed directly with the
contractor by the customer. As such, FAS’s ability to use a sliding scale or caps is
limited because FAS has no direct involvement with the actual transactions and is
dependent on the contractor reporting sales. Therefore, we believe the IFF structure is
a reasonable approach to revenue collection for the MAS Program.

Sales and Revenue Continue to Grow MAS Program sales and revenue have grown
dramatically through the years. In FY 1998, MAS Program sales were $7.6 billion and
IFF revenue was $81 million. 11 By FY 2004, when FSS reduced the IFF, sales had
quadrupled to $32.8 billion and revenue had almost tripled to $237.4 million. Growth has
slowed since FAS was created in FY 2007, but the trend remains positive, as shown in

11 The discrepancy between 1 percent of sales, $76 million, and actual revenue is attributed to: (1) timing differences between

the date the contractor reports sales and the date the actual sales occurred, and (2) revenue recognition by FSS in the year it
earned the fee, not necessarily when it was received.

                                                              6
Figure 4. Revenue grew $2.7 million (1.0 percent) in FY 2010 and $5.8 million (2.1
percent) in FY 2011, and is projected to increase $6.5 million (2.2 percent) in FY 2012.

                                   Figure 4 –Change in IFF Revenue 12
               Change in Revenue (in Millions)                                % Change in Revenue

       $20                                                      8%
       $15                                                      6%
       $10                                                      4%
        $5                                                      2%
        $0                                                      0%
        -$5   2007   2008   2009   2010    2011   2012         -2%    2007    2008    2009    2010   2011    2012
       -$10                                                    -4%




Some MAS Program officials contend that the Administration’s focus on reducing
government expenditures and agencies’ use of their own contracting vehicles may
cause MAS Program revenues to decline in coming years. Others believe revenues
may increase as other agencies shed their competing contracting vehicles to focus on
core competencies, and as state and local governments increase purchases from MAS
contractors. Since the MAS Program is a mature Program with a lengthy sales history,
we see no compelling reason to believe it will not continue to experience at least
modest growth.

Costs Are Rising Faster Than Revenue MAS Program costs have risen substantially
in recent years, as shown in Figure 5, and are growing faster than revenue. Costs grew
16 percent in FY 2010, versus revenue growth of 1 percent. Costs grew 10.7 percent in
FY 2011, while revenue grew 2.1 percent. FAS projects that in FY 2012, costs will grow
13.5 percent, whereas revenue will grow 2.2 percent. Costs have grown in part
because of large capital investments benefitting the MAS Program and elimination of a
hiring freeze.

                             Figure 5 –Change in MAS Program Costs
                 Change in Costs (in Millions)                                  % Change in Costs

        $40                                                     20%
        $30                                                     15%

        $20                                                     10%
        $10                                                      5%

         $0                                                      0%
              2007   2008   2009    2010   2011   2012                 2007    2008    2009   2010    2011   2012
       -$10                                                     -5%




12IFF revenue figures were reduced by the legislatively required 5 percent MAS Program contributions to the Acquisition
Workforce Training Fund, in keeping with FAS’s practice.


                                                          7
Figure 6 shows that the cost to generate each dollar of MAS Program revenue has risen
progressively, margins have gradually declined, and the rate of cost increases has
accelerated. This indicates limited economies of scale as the number of MAS contracts
increases and highlights the importance of ongoing critical cost assessment.

                   Figure 6 – Cost per Additional Dollar of Revenue

   $1.10
   $1.00
   $0.90
   $0.80
   $0.70
   $0.60
   $0.50
   $0.40
   $0.30
           1997 1998 1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011 2012




FAS has identified a number of significant initiatives it believes need to be undertaken to
improve FAS operations, systems, and programs. Some have already begun, and
others are scheduled to begin over the next several years. The expected costs through
FY 2014 are shown in Figure 7. Strategic investments supporting the MAS Program are
funded predominantly from current year revenues. Conversely, initiatives benefitting
other FAS programs are generally funded from ASF reserves accumulated from net
operating revenues of the MAS Program and FAS’s other programs.

                  Figure 7 – FAS Strategic Initiative Costs (in Millions)
    Primary Beneficiary                           Actual FY     Projected    Total FY
        of Strategic         Funding Source       2007-2009     FY 2010-    2007-2014
         Initiatives                                Costs      2014 Costs     Costs
                             MAS Program
       MAS Program                                  $10.2        $28.0         $38.2
                           Ongoing Operations
        Other FAS
                          ASF Reserves             $172.3        $149.8       $322.1
        Programs
    Both MAS and non-     Primarily ASF
                                                     $1.3        $61.2         $62.5
      MAS Programs          Reserves
                    Total                          $183.8        $239.0       $422.8

Strategic initiatives included in Figure 7 that primarily benefit the MAS Program are:
 • Training MAS Program acquisition personnel;
 • Establishing a program management office for directing and advising the Program;
 • Furthering the inclusion of state and local purchasing from FAS contracting vehicles
    (particularly the MAS contracts);
 • Hiring additional contract support staff to help reduce backlogs in processing MAS
    contract options and modifications and awarding new MAS contracts;
 • Instituting various improvements in the MAS process; and
 • Improving enterprise architecture.

                                              8
Conclusion

The IFF is set at a level that consistently generates net operating revenue in excess of
amounts required to recover MAS Program costs, make MAS Program investments,
and maintain a risk mitigating buffer. FAS annually assesses the adequacy of ASF
reserves as part of its budget process. However, FAS has not performed a specific
review to determine whether the IFF rate should be adjusted since FY 2004, when the
rate was reduced from 1 percent to 0.75 percent, and FAS has no criteria or
methodology for performing such reviews. A critical assessment of steadily rising
Program costs should be a part of this evaluation.

The ASF reserves that FAS uses for contingencies and investment had grown to $687.5
million as of September 2009; therefore, FAS should evaluate whether any of these
reserves can be returned to the U.S. Treasury.

Reserves accumulated partly from MAS Program net operating revenue are used to
fund initiatives benefitting other FAS programs. Managing cost recovery at other than
the MAS Program level, while not prohibited by the law that created the ASF, diverges
from the purpose of the IFF that has been communicated to MAS customers.

Controls over MAS Program sales reporting and IFF collection have been improved
since our previous IFF audit, but could be further enhanced by periodically requiring
status updates and proof of payment for open receivables for unpaid IFF found during
OIG preaward contract audits.

Internal Controls

The examination of internal controls was limited to those necessary to achieve the
specific objectives and scope of the audit. Our results are identified in the body of this
report.

Management Comments

Management concurred with recommendations 1 through 4, but took exception to
recommendation 5. We worked with FAS to develop a revised recommendation 5 that
was acceptable to both FAS and the OIG and have included the revised
recommendation in this final report. We have reviewed management’s other comments
and made changes where we deemed appropriate. Overall, we reaffirm our findings
and recommendations. Management’s comments are included in their entirety as
Appendix B.




                                            9
APPENDIXES
                                        AUDIT OF THE
                             MULTIPLE AWARD SCHEDULE PROGRAM
                                   INDUSTRIAL FUNDING FEE
                              REPORT NUMBER A090256/Q/A/P12003

                                                  APPENDIX A

               BACKGROUND, OBJECTIVES, SCOPE, AND METHODOLOGY

Background

The Multiple Award Schedules (MAS) Program provides authorized users with a
simplified process for acquiring over 11 million commonly-used supplies and services at
prices associated with volume buying. 13 This Program is one of the General Services
Administration’s (GSA’s) largest procurement programs, having over 19,000 contracts
and $40.2 billion in fiscal year (FY) 2011 sales. GSA negotiates MAS contracts with the
objective of achieving the contractor’s most favored customer pricing, given similar
contract terms and conditions. Authorized users may order supplies or services at the
pre-negotiated prices and pay the contractor directly for their purchases.

The MAS Program became self-funded in 1995. At that time, GSA’s legacy Federal
Supply Service (FSS) established an Industrial Funding Fee (IFF) of 1 percent of sales
to be collected and used as follows:




MAS contractors included the fee in their prices and then reported sales and remitted
the IFF to GSA quarterly. Program revenues and costs were accounted for in GSA’s
legacy General Supply Fund (GSF), in accordance with its revolving fund authority. 14
This authority restricted usage of GSF reserves and required that excess reserves be
returned to the U.S. Treasury.




13 GSA Order ADM 4800.2F, Eligibility to Use GSA Sources of Supply and Services, specifies the agencies, activities, and

organizations that are eligible to use GSA Schedule contracts. Authorized users include federal agencies, state and local
governments, and other organizations meeting eligibility requirements.
14 U.S.C. Title 40, Section 321 authorized the General Supply Fund and the Fund’s uses and processes.


                                                          A-1
In 1999, we conducted an audit of the FY 1997 and FY 1998 IFF. The audit found that,
with MAS Program sales then averaging $6.7 billion annually, the IFF had generated
almost twice the revenue needed to recover MAS Program costs. 15 As a result, we
recommended that the Commissioner of FSS adjust the IFF to bring revenue in line with
costs, establish criteria for determining when future adjustments to the fee would be
needed, and strengthen controls and oversight. In FY 2004, FSS reduced the IFF from
1 percent to 0.75 percent. The last time surplus MAS revenue was returned to the U.S.
Treasury was FY 2006, at which time FSS returned $92 million in FY 2004 funds.

Since then, the organizational structure of GSA has changed significantly. The GSA
Modernization Act, Public Law 109-313, was passed by the 109th Congress on October
6, 2006. This law established the Federal Acquisition Service (FAS) by combining
GSA’s legacy Federal Technology Service and FSS. In the new FAS organization,
MAS schedules that FSS had previously managed as a single program were broken out
across three business portfolios, and FAS ceased managing for cost recovery at the
MAS Program level.

Public Law 109-313 also established the Acquisition Services Fund (ASF) by combining
the legacy Information Technology Fund and the GSF. The ASF is a revolving fund that
FAS uses to account for revenues and costs of the MAS Program, as well as its various
other procurement programs. IFF revenue that exceeds current fiscal year costs is
retained in three ASF reserve accounts (working capital, business, and investment) to
provide a risk mitigating buffer, fund system improvements, and make other large
strategic investments in FAS programs. While excess reserves in the ASF are still
required to be returned to the U.S. Treasury, the ASF has greater latitude regarding
reserve retention and use than the legacy GSF had.

MAS Program sales and revenue have climbed substantially since the IFF rate was last
reviewed and adjusted. While growth of MAS sales and revenue has slowed in recent
years, it remains positive. FY 2011 IFF revenue was $287.6 million.

Objectives, Scope, and Methodology

The objectives of our audit were to determine whether: (1) the IFF is appropriately
structured and set at a level that provides a reasonable amount of revenue for FAS to
recover MAS Program costs, make appropriate investments, and maintain a risk
mitigating buffer; and (2) controls for the IFF collection process promote accurate and
timely payment of these fees.

To accomplish the objectives of our audit, we performed the following steps:

    •   Reviewed relevant reports from the Government Accountability Office and
        GSA’s Office of Inspector General;


15 “Audit of the Federal Supply Service’s Industrial Funding Fee for the Schedules Program,” Report Number

A833309/F/H/V99513 dated May 28, 1999.

                                                  A-2
        •   Reviewed reports issued by other entities, including an August 2002 report
            on the IFF by the Logistics Management Institute; 16
        •   Evaluated MAS Program revenue and cost information provided by the
            FAS Office of the Controller, including significant FY 2007 - 2009
            variances;
        •   Performed trend analysis and compared MAS financial data to the
            Employment Cost Index, Consumer Price Index, and Producer Price
            Index;
        •   Reconciled financial data provided by the FAS Office of the Controller to
            GSA’s audited financial statements; and
        •   Interviewed cognizant FAS officials, including those responsible for FAS
            financial data and controls over sales reporting and IFF payments.

Concern has been expressed in Congressional testimony that GSA’s use of an IFF
based on dollars of sales creates a conflict of interest. This testimony stated that
earning fees on contracts improperly shifts the incentive from getting the best deal for
the taxpayers to keeping prices high to maximize agency fees and profits. However, the
scope of our audit did not include assessing whether charging a fee adversely impacts
contract pricing. Rather, we evaluated whether the amount of revenue generated by the
IFF as it exists is appropriate to support the MAS Program. We performed broad trend
analysis from FY 1997, the initial point of our prior IFF audit, through FY 2009. Since
FAS was not established until FY 2007, our current IFF audit focused primarily on FY
2007 through 2009 MAS Program financial data, but we updated some information in
the report based on data FAS provided after the completion of fieldwork.

We conducted this performance audit from August 2009 through June 2010 in
accordance with generally accepted government auditing standards, and obtained
additional information and updated data in April, May, and October 2011. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




16   This report, “Federal Supply Service Schedules Program: Business Case Analysis,” was prepared for FSS management.

                                                             A-3
           AUDIT OF THE
MULTIPLE AWARD SCHEDULE PROGRAM
      INDUSTRIAL FUNDING FEE
 REPORT NUMBER A090256/Q/A/P12003

           APPENDIX B

     MANAGEMENT COMMENTS




               B-1
B-2
B-3
B-4
B-5
B-6
B-7
B-8
B-9
B-10
B-11
B-12
                                AUDIT OF THE
                     MULTIPLE AWARD SCHEDULE PROGRAM
                           INDUSTRIAL FUNDING FEE
                      REPORT NUMBER A090256/Q/A/P12003

                                     APPENDIX C

                               REPORT DISTRIBUTION

Commissioner, Federal Acquisition Service (Q)

Deputy Commissioner, Federal Acquisition Service (Q1)

Chief of Staff, Federal Acquisition Service (Q0A)

Director, GAO/IG Audit Response Division (H1C)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




                                          C-1
